                             Office of the Inspector General

November 30, 1998

Kenneth S. Apfel

Commissioner of Social Security


Acting Inspector General



Software Development and Maintenance Controls at the Social Security Administration



The attached final report presents the results of our review of software development

and maintenance controls at the Social Security Administration (SSA) (A-13-96-11000).

The objective of our review was to assess controls over application software

development and maintenance at SSA.


You may wish to comment on any further action taken or contemplated. If you choose

to offer comments, please provide them within the next 60 days. If you wish to discuss

the final report, please call me or have your staff contact Pamela J. Gardiner, Assistant

Inspector General for Audit, at (410) 965-9700.





                                                       James G. Huse, Jr.

Attachment
             ���������      

    ���������������������             



������������������������������            




   ������������������������

    �����������������������

       �������������������

          ��������������



   ������������������������������������




������������

                      E X E C U TI V E S U M M ARY


OBJECTIVE

The objective of this audit was to assess controls over application software
development and maintenance at the Social Security Administration (SSA).

BACKGROUND

The Office of Management and Budget (OMB) Circular A-130, Security of Automated
Information Resources, requires that a program be developed ensuring all information
that is collected, processed, transmitted, stored, or disseminated in general support
systems and major applications is adequately safeguarded. Also, the
Privacy Act of 1974 requires that each agency maintaining a system of records have
administrative, technical, and physical safeguards ensuring records are secure and
kept confidential and protecting the records from any security or integrity hazard. To
comply with these requirements, it is important to have a clearly defined approach to
software development and maintenance. In 1985, SSA established the Software
Engineering Technology (SET) manual defining the processes by which all systems are
developed and maintained. It was also intended to document the standards,
procedures, guidelines, and automated tools which are to be used in the software
development and maintenance process. The latest revision to SET was in May 1994.1
We initiated this audit to ensure that SSA is meeting these requirements.

Annually, SSA processes about 240 million earnings records, pays monthly benefits to
over 50 million individuals, and issues new or replacement Social Security cards to
about 16 million people. To accomplish this vital mission, SSA maintains an automated
system that consists of four basic programmatic business functions: (1) enumeration;
(2) earnings; (3) Retirement, Survivors and Disability Insurance claims and post-
entitlement processing; and (4) Supplemental Security Insurance claims and post-
eligibility processing. Each of these functions involves hundreds of software programs
that are required to be developed according to SET. These programs are continuously
being modified due to legislative changes and the initiatives set forth by the
Commissioner of Social Security. Additionally, SSA is undertaking several major
modernization projects to more efficiently serve the public, which includes distributing
selected business functions between Headquarters and SSA’s field components.

Field work was performed at SSA Headquarters in Baltimore, Maryland between


1
    There is also a 1997 draft version of SET that has not been implemented.


                                                     �

January and October 1997. We reviewed four software projects that were completed
during 1996 for compliance with key SET requirements. Two were newly developed
software and two were software maintenance releases for cyclical updates. This review
focused primarily on the planning through the evaluation stages of SSA’s systems
development life-cycle (SDLC). The later phases of the SDLC were covered under a
separate review.

RESULTS OF REVIEW

SSA’s staff working on the four projects reviewed either did not follow SET procedures
or substituted their own methods for documenting and controlling projects. We believe
this occurred because SET is difficult to use, especially in today’s dynamic systems
environment. In addition, SET does not differentiate between mandatory standards and
discretionary guidelines. Also, SSA is focused on piloting future methodologies and is
no longer enforcing current standards. Specific findings were:

      •	 authorizations that were required at key points in the SDLC were not always
         clearly documented;

      •   documentation was not kept in a central repository;

      •	 critical problems that were identified during validation were not always resolved
         or analyzed for their effect; and

      •   quality assurance reviews were no longer being performed.

In its audit of SSA’s Fiscal Year (FY) 1997 financial statements,
                           2
PricewaterhouseCoopers reported that SSA needs to improve its software application
development, as well as change control policies and procedures, and consider this
condition to be an internal control weakness under the Federal Managers’ Financial
Integrity Act (FMFIA) of 1982. Our findings corroborate the concerns of
PricewaterhouseCoopers. Weaknesses in the software development and maintenance
process increase the risk that unauthorized or untested changes could be introduced
into the production environment which would reduce the reliability of information being
processed.




2
    Formerly known as Price Waterhouse.


                                              ��

CONCLUSIONS AND RECOMMENDATIONS

SSA needs to establish an organizational commitment toward greater consistency and
discipline in its software development and maintenance process. We recommend that
SSA:

   •	 Enforce the requirements for authorizations and documentation at key points in
      the SDLC.

   •	 Establish procedures in SET for maintaining critical documents in a central
      repository.

   •	 Enforce the requirement that high priority problems discovered during validation
      be resolved before the software is released to production.

   •   Reinstate quality assurance reviews prescribed in SET.

SSA agreed with our recommendations. Currently SSA is implementing pilot projects
relating to our first two recommendations. In response to our third recommendation,
SSA stated that when possible, it will remove changes where problems have occurred
and implement the changes in a later release. Finally, SSA stated that it plans to
reinstate quality assurance reviews and is piloting integrated quality assurance reviews
within the framework of the capability maturity model (CMM). Appendix A includes a
copy of the complete text of SSA’s comments.




                                           ���

                         TAB L E O F C O N TE N TS


                                                                                                              Page

EXECUTIVE SUMMARY.......................................................................................... i


INTRODUCTION .................................................................................................... 1


RESULTS OF REVIEW .......................................................................................... 5


         AUTHORIZATIONS REQUIRED AT KEY POINTS IN THE

         PROCESS NEED TO BE CLEARLY DOCUMENTED ................................. 5


         ESSENTIAL DOCUMENTS NEED TO BE KEPT IN A CENTRAL

         RESPOSITORY ........................................................................................... 6


         CRITICAL PROBLEMS IDENTIFIED DURING VALIDATION NEED

         TO BE RESOLVED ...................................................................................... 7


         QUALITY ASSURANCE REVIEWS SHOULD BE PERFORMED ................ 8


CONCLUSIONS AND RECOMMENDATIONS ....................................................... 9


APPENDICES

APPENDIX A – SSA Comments


APPENDIX B – Major Contributors to This Report


APPENDIX C – SSA Organizational Chart

                         I N TR O D U C TI O N


OBJECTIVE

The objective of this audit was to assess controls over application software
development and maintenance at SSA.

BACKGROUND

OMB Circular A-130, requires that a program be developed ensuring all information that
is collected, processed, transmitted, stored, or disseminated in general support
systems and major applications is adequately safeguarded. Also, the Privacy Act of
1974 requires that each agency maintaining a system of records have administrative,
technical, and physical safeguards ensuring security and confidentiality of records and
protecting those records from any anticipated security or integrity hazard. To comply
with these requirements, it is important to have a clearly defined approach to software
development and maintenance. SSA relies on SET standards and procedures to
achieve the desired security and integrity within SSA systems.

Annually, SSA processes about 240 million earnings records, pays monthly benefits to
over 50 million individuals, and issues new or replacement Social Security cards to
about 16 million people. To accomplish this, SSA maintains an automated system that
consists of four basic programmatic business functions: (1) enumeration; (2) earnings;
(3) Retirement, Survivors and Disability claims and post-entitlement processing; and
(4) Supplemental Security Insurance claims and post-eligibility processing. Each of
these functions involves hundreds of software programs that are continuously being
modified due to legislative changes and the Commissioner’s initiatives. Also, SSA is
undertaking several major modernization projects to better serve the public.

SSA’s Dynamic Systems Environment

SSA is ending its reliance on centralized mainframe computers for programmatic
applications. Instead, SSA is developing field-based computing systems to operate in
cooperation with each other. Therefore, in the future, selected business functions will
be distributed between Headquarters and SSA’s field components for processing. This
change presents a challenge. Applications will be more complex; thereby, increasing
the need for new, more advanced skills. The staff that is developing, using, and
maintaining the new applications will likely experience a cultural change. A well-




                                            �

defined, disciplined development and maintenance process will aid in supporting the
staff in this environment. Equally important, this process will contribute significantly to
the integrity and maintainability of the new applications.

SSA’s Software Engineering Technology

In 1985, SSA developed a systems engineering environment management plan.
Included in this plan was the SET manual. SET was developed to define the processes
by which all systems are developed and maintained within SSA. By providing a
framework of standards, procedures, and tools, SET is intended to:

•   ensure the usability of software,
•   maximize error detection in the early stages of development,
•   improve software maintainability, and
•   improve responsiveness to user requirements.

SSA has a new initiative to improve its software process. SSA’s software process
improvement program is following the capability maturity model that was recommended
by the Software Engineering Institute at Carnegie Mellon University. Several pilots are
underway using new processes. However, it will be sometime before any agencywide
changes are implemented. SSA also drafted a new version of SET in February 1997
but has not adopted it as the Agency’s standards. Therefore, SSA’s current standards
and procedures are found in the SET manual that was revised in May 1994.

SET identifies the activities that are to take place in each stage of SSA’s SDLC and the
products needed for documentation. SET is organized into 15 parts that are contained
in 7 large volumes.




                                             �

SSA’s Systems Development Life Cycle

SSA’s SDLC is shown in the following table.

           Stage                                     Purpose

    Planning Stage	       To develop an Automated Data Processing (ADP) Plan
                          project proposal for systems development or change, or to
                          determine need for maintenance or minor modifications not
                          requiring formal ADP Plan approval.

    Requirements          To analyze user needs and define user requirements at a
    Definition and        level sufficiently detailed to permit system design and to
    Analysis Stage        develop a validation plan establishing a minimum level of
                          acceptable performance.

    Design Stage          To translate detailed functional requirements (DFR) into
                          detailed program specifications.

    Development Stage     To translate the DFR into executable computer programs.

    Evaluation Stage	     To verify that the functional requirements are met by the
                          software and there are no adverse effects to the overall
                          process.

    Operational           To test validated application software in a production
    Integration and       environment.
    Testing Stage
    Operations Stage      To address activities taking place during the production life.

    Post-implementation To ensure user needs are met and products perform as
    Review Stage        expected.


SCOPE AND METHODOLOGY

We used a variety of methods to achieve our objective. These included reviewing:
(1) applicable laws, regulations, and guidelines; (2) OMB Circular A-130; (3) the
Privacy Act of 1974; and (4) Federal Information Processing Standards Publication 106,
Guideline on Software Maintenance.

We reviewed SET and identified pertinent products SET requires that we believed
would provide documentation to meet our objective. We then selected four software
projects that were completed during 1996 to determine whether they were in
compliance with these provisions. Two were newly developed software - Modernized


                                          �

Claims System Release 3.6 (MCS 3.6) and Drug Abuse and Alcoholism (DA&A). Two
were software maintenance projects requiring cyclical updates - Benefit Rate Increase
and Annual Wage Reporting for Tax Year 1995 (AWR 95). We interviewed SSA staff
and reviewed the documentation prepared for the software development or
maintenance for these four projects.

This review focused primarily on the first five stages of SSA’s SDLC from planning
through evaluation stages. The other stages will be covered in separate reports in the
near future. We limited our assessment of internal controls to the required SET
procedures that related to the objective of our audit. Field work was performed at SSA
Headquarters in Baltimore, Maryland, from January through October 1997. We
conducted this audit in accordance with generally accepted government auditing
standards.




                                          �

                        R E S U LTS O F R E V I E W 


SSA has had a comprehensive methodology for software development and
maintenance since 1985 when it developed its systems engineering environment plan.
The SET manual, which was part of this plan, sets forth SSA procedures. The
objectives of SET are sound.3 The findings show that because SET is difficult to use,
SSA members bypassed SET procedures or substituted their own methods of
documenting and controlling projects, especially when faced with stringent time frames.


In its audit of SSA’s FY 1997 financial statements, PricewaterhouseCoopers reported
that SSA needs to improve its software application development, change control
policies and procedures, and consider this condition to be an internal control weakness
under FMFIA. Our findings corroborate PricewaterhouseCoopers’ concerns.
Weaknesses in the software development and maintenance process increase the risk
that unauthorized or untested changes could be introduced into the production
environment which would reduce the reliability of the information processed. We found
the following areas of concern.

AUTHORIZATIONS REQUIRED AT KEY POINTS IN THE PROCESS
NEED TO BE CLEARLY DOCUMENTED

SET requires preparation of DFRs before software is designed and developed.4 During
the development process, DFRs were prepared for three of the four projects. For the
software development relating to DA&A legislation, DFRs were not prepared until after
the software was implemented. During the design and development phases, the
functional requirements were defined in an ad hoc manner and were also relayed
between components informally. The informal DFRs were 7 pages in length compared
to the 133 pages of the formal DFRs that were prepared after the software was
implemented. Findings show that critical information can be omitted when using an
informal abbreviated document. We were informed that upper management decided to
forego normal procedures because of the stringent time frames. Formal DFRs are
important for several reasons. They document the service level requirements and
identify audit, security, and privacy controls. They also detail the validation plan, which



3
 Part 10, Chapter 15.2 describes the objectives which include providing a vehicle for communication
and providing a framework for introducing standards to ensure software usability and maintainability,
maximum error detection, and improving responsiveness to user requirements.
4
    Part 30, Chapter 20.2.1.


                                                   �

tends to establish a level of acceptable performance. DFRs are a prerequisite for
design and development stages of the SDLC and SET requires preparation of DFRs
before software is designed and developed. Without this properly approved document,
user needs may not be met. Without proper management control, there is risk that
unauthorized or erroneous changes can be made to software, which would reduce the
reliability of information processed.

SET requires preparation of a Systems Release Certification5 (SRC) for software
releases requiring a validation plan. However, for two of the four projects we reviewed,
the authorizations to release the software were given orally rather than by an SRC. We
believe the SRC is a key document because it shows that officials in the responsible
components certify the acceptability of changes. For example, it documents the Office
of Systems Requirements certification that: (1) changes have been validated;
(2) validation results conform to functional requirements; (3) procedures, training, and
forms have been provided to end users; (4) control, auditability, security, and privacy
requirements are met; and, (5) users were notified of the implementation date. Without
the signed SRC, there is no assurance that all responsible components agree that the
software is ready for release.

SSA’s systems life-cycle embraces an interactive team approach to systems
development. According to SET, users are to be substantially involved in the planning
phase.6 They are responsible for the user planning team report with recommendations,
which is a management decisionmaking document. This documentation was not
available for the two new software releases we reviewed. We did note that a core
group was convened for the DA&A software process. However, the core group
substituted their own control and tracking methods, and instead of issuing a team
report, developed an issue and resolutions chart. Without a defined and consistent
process, there is no assurance that all important documentation and authorizations will
be obtained. Properly authorized documentation is essential to protect against
erroneous changes and weakened security controls. These documents should be
maintained for as long as a system is in operation in case questions arise regarding
why or when certain modifications were adopted.

ESSENTIAL DOCUMENTS NEED TO BE KEPT IN A CENTRAL
REPOSITORY

There was no central repository for essential documents making retrieval difficult and
time consuming. For the four projects, we were not able to go to one location to obtain
project documentation. We were referred to multiple components and several staff




5
    Part 60, Chapter 30.7.
6
    Part 20, Chapter 30.2.3.


                                           �

members before we could determine if a document had been prepared and could be
obtained, if it existed. For example, we had to contact five people in three components
to determine whether there was an SRC for the DA&A software releases and how
authorization was given. Easy retrieval of important documents is essential for the
integrity and maintainability of software. Properly authorized documents should be kept
in one central place and remain readily available for review while an application is in
operation.

CRITICAL PROBLEMS IDENTIFIED DURING VALIDATION NEED TO BE
RESOLVED

SET requires that problems found during validation be reported and resolved. If the
problems are not resolved, an estimate is to be prepared of their effect on the system,
the public, and SSA’s operating components.7 SET requires that an analysis be made
of unresolved errors to determine if the level of a problem is within acceptable
tolerances. We believe this is an important standard to ensure the integrity of software
and one that should not be compromised. However, we found that for two of the four
systems reviewed, software that contained critical problems was released to
production.

•	 Because of the pressure to meet target dates, software modifications were released
   for AWR 95 with 7 critical problems and 17 high-priority problems unresolved.
   Because of these problems, several workloads in operating components had to be
   interrupted until the software problems were resolved. Moreover, we believe this
   situation increased the risk of erroneous data being processed to earnings records.
    For example, the validation process identified two records that did not correctly
   reflect domestic service or tip wages. One record reflected wages of $21,693 that
   should have been $19,565. Another reflected wages of $17,893 that should have
   been $15,997. Without correcting problems identified during the validation process,
   incorrect benefits could be paid, such as overpayments for these records.

•	 Software for MCS 3.6 was released with two high-priority problems unresolved. One
   problem affected the amount of benefit payment because the worker’s
   compensation offset was not always applied correctly. The validation process for
   MCS 3.6 identified a case where the software failed to reduce a beneficiary’s
   monthly benefit by $124.20 to offset the worker’s compensation he was
   receiving. This problem was reported on November 7, 1996, and again on
   November 25, 1996. Nevertheless, the software was implemented on
   December 9, 1996. As of August 1997, 8 months after the MCS 3.6 software was
   implemented, the problem still had not been resolved because the cause of the
   problem could not be identified. This problem could cause incorrect monthly benefit
   payments and create overpayments. SSA did not analyze the number of


7
    Part 60, Chapter 30.6.2.5.


                                           �

      beneficiaries that may be affected or the amount of overpayments that may occur to
      determine whether the problem was within an acceptable tolerance. This is another
      example where unresolved problems could affect one of SSA’s primary missions,
      that of paying beneficiaries correctly.

•	 Another problem associated with MCS 3.6 affected information on notices sent to
   beneficiaries who filed for benefits under their own SSN (earnings record) and also
   on the earnings record of their spouse. Notices for these cases were not explaining
   the basis for the benefit calculation. The notices needed to explain which
   earnings record provided the largest benefit. This condition was reported on
   December 4, 1996, but a decision was made not to correct it until the scheduled
   release of MCS 3.6.1 software in August 1997. SSA made this decision because it
   believed difficulties would be encountered in validating a maintenance release. Not
   resolving problems such as this will affect SSA’s goal of providing clear notices to
   the public.

QUALITY ASSURANCE REVIEWS SHOULD BE PERFORMED

SET states that the quality assurance process must ensure systems development
standards are in place, and, when they are used, they produce products that meet
requirements and are fit for use. The objective of the quality assurance program must
be to produce products that are free of defects.8 The Office of Systems Planning and
Integration (OSPI) is responsible for quality assurance. We contacted staff from OSPI
to determine whether the projects selected for our review were also selected for SSA’s
quality assurance reviews. OSPI staff informed us that no quality assurance reviews
had been performed in more than 2 years because resources were focused on piloting
methodologies for the future. As our review revealed, without monitoring and
enforcement of standards, the quality assurance objective of SET is not being met. As
a result, beneficiaries may not receive world-class service and may be paid incorrectly.




8
    Part 110, Chapter 10.


                                             �

 CONCLUSIONS AND RECOMMENDATIONS


We concluded that discipline and consistency in SSA’s current systems development
and maintenance process has deteriorated for several reasons. SET is difficult to use,
especially in today’s dynamic systems environment. Also, it does not clearly
differentiate between mandatory standards and discretionary guidelines. In addition,
we believe SSA is focused on piloting methodologies for the future and is no longer
enforcing current standards. SSA needs to establish an organizational commitment to
restoring consistency and discipline in its present process while it plans for the future.

We recommend that SSA:

1. 	 Enforce the requirements for authorizations and documentation at key points in the
     SDLC.

2. 	 Establish procedures in SET for maintaining critical documents in a central
     repository.

3. 	 Enforce the requirement that high priority problems discovered during validation be
     resolved before the software is released to production.

4. Reinstate quality assurance reviews prescribed in SET.

SSA agreed with our recommendations. Currently SSA is implementing projects
relating to our first two recommendations. In response to our third recommendation,
SSA stated that it will when possible, remove changes where problems have occurred
and implement the changes in a later release. Finally, SSA stated that it plans to
reinstate quality assurance reviews and is piloting integrated quality assurance reviews
within the framework of CMM. Appendix A includes a copy of the complete text of SSA’s
comments.




                                             �

APPENDICES

                        APPENDIX A



S S A C O M M E N TS

                                                                             APPENDIX B



MAJOR CONTRIBUTORS TO THIS REPORT


Office of the Inspector General

Don Franklin, Director, Systems Audits

Bruce Daugherty, Audit Manager

Jean Lynch, Senior Auditor

Randy Townsley, Senior Auditor

Greg Hungerman, Program Analyst

Harold Hunter, Senior Auditor



For additional copies of this report, please contact the Office of the Inspector General’s

Public Affairs Specialist at (410) 966-9135. Refer to Common Identification Number

A-13-96-11000.

                                   APPENDIX C



S S A O R G AN I Z ATI O N AL C H AR T

